No. 19-631

In the Supreme Court of the United States
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
PETITIONERS

v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

REPLY BRIEF FOR THE PETITIONERS

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 19-631
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
PETITIONERS

v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

REPLY BRIEF FOR THE PETITIONERS

The court of appeals in this case held that the
government-debt exception to the automated-call restriction of the Telephone Consumer Protection Act of
1991 (TCPA), Pub. L. No. 102-243, 105 Stat. 2394, violates
the First Amendment. Pet. App. 9a-22a. It then held
that the proper remedy was to sever the governmentdebt exception, leaving the basic automated-call restriction in place. Id. at 22a-24a.
Respondents agree that this Court should grant the
petition for a writ of certiorari in this case to review
both of those holdings. They acknowledge (Br. 12) that
certiorari is “appropriate under this Court’s usual practice of reviewing any decision holding a federal statute
unconstitutional.” And they contend (Br. 17) that re-

(1)

2
view of the court of appeals’ severability holding is likewise warranted. Although the government does not regard the court of appeals’ severability holding as independently certworthy, we agree that this Court’s review
should encompass that aspect of the court of appeals’
decision. Pet. 14-15.
Respondents also agree that this case is a suitable
vehicle for addressing both holdings. Although respondents contend (Br. 25-26) that the Court should
likewise grant the petition for a writ of certiorari in
Facebook, Inc. v. Duguid, No. 19-511 (filed Oct. 17, 2019),
they do not dispute that resolution of the additional
statutory-interpretation question presented in Duguid
could render unnecessary any consideration of the First
Amendment and severability issues in that case. Thus,
to ensure that those issues are properly before this
Court, the Court should grant the petition in this case,
whether or not it also grants certiorari in Duguid.
Respondents’ remaining arguments are primarily directed to the merits of the question presented. Respondents contend (Br. 16) that the government-debt exception cannot be content-neutral if its application depends
on a call’s economic purpose. But as our petition explains (Pet. 8-10), many federal statutes, including the
Fair Debt Collection Practices Act, 15 U.S.C. 1692
et seq., likewise regulate communications based on the
economic activity of the persons involved. Respondents
do not explain how the TCPA differs from those other
statutes, which have not heretofore been thought to
raise significant First Amendment concerns.
Respondents also observe (Br. 16) that the certiorari
petition does not address whether the TCPA survives
strict scrutiny. The government’s position, however, is
that strict scrutiny is unwarranted; because the TCPA

3
is content-neutral, “lesser scrutiny” applies, Reed v.
Town of Gilbert, 135 S. Ct. 2218, 2232 (2015), and the
TCPA survives that scrutiny. See Pet. 11-14. In any
event, the question presented—which asks whether the
government-debt exception “violates the First Amendment,” Pet. I—fairly encompasses the question whether
the statute survives strict scrutiny.
Finally, respondents argue (Br. 17-25) that the court
of appeals erred in severing the government-debt exception from the TCPA’s automated-call restriction.
Severability, however, “is largely a question of legislative intent.” Regan v. Time, Inc., 468 U.S. 641, 653 (1984)
(plurality opinion). Respondents make no effort to explain why invalidation of the automated-call restriction
would be consistent with legislative intent here.
As the court of appeals observed, the automated-call
restriction stood on its own for more than two decades
before Congress enacted the government-debt exception. Pet. App. 24a. Respondents do not argue, and the
court below did not suggest, that the restriction was invalid before the government-debt exception was added
to the statute. Given that history—and the severability
provision set forth in the Communications Act of 1934,
47 U.S.C. 151 et seq., of which the TCPA is a part, Pet.
App. 23a; see 47 U.S.C. 608—there is no reason to doubt
Congress’s intent that the automated-call restriction
would remain in place if the government-debt exception
were held to have introduced a constitutional infirmity,
Pet. App. 24a.

4
* * * * *
For the foregoing reasons and those stated in the petition for a writ of certiorari, the petition should be
granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General

DECEMBER 2019

